APPENDIX A

APPENDIX B

APPENDIX C

Report-At-A-Glance
go.usa.gov/xX7ZU

Overview
The United States Sentencing Commission was directed by Congress to set sentencing guidelines
for repeat violent offenders or repeat drug trafficking offenders, known as "Career Offenders," at or
near the statutory maximum penalty. 1 Tracking statutory criteria, a defendant qualifies as a Career
Offender in the sentencing guidelines if l) the defendant was at least 18 years of age at the time
he or she committed the instant offense; 2) the instant offense is a felony that is a crime of violence
or a controlled substance offense; and 3) the defendant has at least two prior felony convictions of
either a crime of violence or a controlled substance offense. 2 Following a multi-year examination
of the application and impact of the Career Offender guideline, the Commission amended the
guidelines and published a comprehensive report recommending statutory changes (Report to
the Congress: Career Offender Sentencing Enhancements). Below are some key findings and
recommendations of the full report.

Report Highlights
•

Sentences Relative to the Guideline Range for
Career Offenders

While career offenders account for just
3% of the annual federal caseload, they
account for more than 11 % of the federal
prison population due to their lengthy prison
sentences (on average, more than 12 years,
or 147 months, in prison).

Non-Gov'!
Sponsored Below
Guideline Range3
25.9%

• Career offenders often receive sentences
below the guideline range (often at the
government's request), especially when
they qualify as career offenders on the basis
of drug trafficking offenses alone ("drug
trafficking only" pathway).
Guideline Minimum & Sentence Imposed
by Career Offender Pathway5
'

Drug Trafficking Only

Mixed

Violent Only

Average
Guideline Minimum

, Average
Sentence Imposed

207 months
/17.3 years)

134 months
/11.2 years)

212 months
/17.7 years)

145 months
/12. 1 years)

209 months
(174 years)

179 months
I 14. 9 years)

Above
Guideline
Range
1.0%

•

•

APPENDIX D

Although career offenders with a violent
instant or prior offense often have more
serious criminal histories, the career offender
directive has the most significant impact
on drug trafficking offenders because
they often carry higher statutory maximum
penalties than some violent offenses. 6
Despite similar average guideline minimums,
"drug trafficking only" career offenders are
generally sentenced less severely than other
career offenders. In these cases, federal
judges impose sentences similar to the
sentences recommended in the guidelines
for the underlying drug trafficking offense.

